                                          Office of Inspector General
                                          U.S. Small Business Administration


                                                                                         August 2011 Update



  Business Loan Programs                                              been arrested 22 times. This is a joint investigation with
                                                                      the Bureau of Alcohol, Tobacco, Firearms, and
  Material Deficiencies in Five 7(a) Recovery Act Loans               Explosives.
  On August 25, 2011, the OIG issued the second report in
  a series of reports addressing purchased 7(a) Recovery              New Jersey Woman Pleads Guilty
  Act loans. The report identified five early-defaulted               On August 11, 2011, a New Jersey woman pled guilty to
  loans that resulted in questioned costs of $2.7 million and         an Information charging her with one count of conspiracy
  warranted immediate attention by the SBA. These loans               to commit bank fraud, one count of possession of fifteen
  were part of a judgmental sample of 25 Recovery Act                 or more unauthorized access devices, one count of
  loans of $500,000 or more that were purchased as of                 aggravated identity theft, and an agreement for civil
  September 30, 2010. The audit found that lenders and                forfeiture in the amount of $1,230,546 in U.S. District
  the SBA did not originate and close the five 7(a)                   Court for the District of New Jersey. The investigation
  Recovery Act loans in accordance with the SBA’s rules               revealed that an organized group of Korean nationals
  and regulations, and commercially prudent lending                   were obtaining credit cards and loans from various
  standards. Further, SBA loan officers did not identify the          lending institutions using false identities, documents, and
  deficiencies in three of the loans during their purchase            business names. Loan officers at various banks were also
  reviews. Deficiencies identified in the five loans                  involved in the scheme. Many of the loans were SBA
  included: (1) inadequate assurance of repayment ability;            guaranteed. The woman, one of the leaders of the
  (2) ineligible use of proceeds; (3) questionable eligibility;       Korean group, brokered 33 loans totaling approximately
  and (4) improper guaranty amount. Of the total                      $1.8 million. Current losses on the loans are
  $2.7 million questioned in this report, we recommended              approximately $1.3 million. This is a joint investigation
  recovery of approximately $1 million. The remaining                 with the Internal Revenue Service – Criminal
  $1.7 million is not recoverable due to deficiencies in the          Investigations Division, the Englewood New Jersey
  SBA’s origination of the loans.                                     Police Department, and the Bergen County Prosecutor’s
                                                                      Office.
  Texas Businessmen Indicted
  On August 4, 2011, two men were indicted in U.S.                    North Carolina Man Pleads Guilty
  District Court for the Eastern District of Texas on one             On August 17, 2011, a man pled guilty in U.S. District
  count of conspiracy to commit arson and one count of                Court for the Western District of North Carolina to a Bill
  use of fire to commit a felony and aiding and abetting.             of Information charging him with four counts of wire
  The indictment also charges them with conspiring to burn            fraud. According to the Information, he engaged in a
  and/or torch three business structures for the purpose of           scheme to defraud certain financial institutions and the
  fraudulently receiving insurance proceeds. In addition,             SBA out of at least $132,500 by fraudulently submitting
  one subject was also indicted on two counts of federal              loan applications and documentation for SBA-guaranteed
  arson and aiding and abetting, and one count of false               loans and then diverting the proceeds of such loans for
  statements to a bank. The investigation revealed that he            unauthorized uses. This case was initiated by the OIG as
  received an SBA-guaranteed loan in the amount of                    a result of a referral from an SBA lender. This is a joint
  $1,724,800, through a Houston, Texas bank for the                   investigation with the U.S. Postal Inspection Service.
  construction of a restaurant and gas station in Mount
  Pleasant, Texas. According to the indictment, the subject           Texas Loan Broker Pleads Guilty
  knowingly made a material false statement on an SBA                 On August 18, 2011, a loan broker pled guilty in U.S.
  loan application for the purpose of influencing the                 District Court for the Northern District of Texas to one
  actions of the SBA. He failed to disclose on his SBA                count of conspiracy to commit bank fraud. The woman
  Form 912, Statement of Personal History, that he had                worked directly with 200 borrowers by instructing them


Monthly Update on Activities of the SBA Office of Inspector General
on how to prepare their loan paperwork and by obtaining               responsible for selling various delinquent loans to private
from them the necessary financial records. On 45 of                   investors and recommended selling delinquent loans for
these loan packages, she represented to various financial             substantially less than they were worth to his step-brother
institutions that the borrowers had made their required               and son-in-law without disclosing to the SBA the familial
cash injections when they had not. She also instructed                relationships involved or the true value of each loan.
the borrowers to write checks to her company in the                   This is a joint investigation with the FBI.
amounts of their required capital injections. She then
photocopied and returned the checks to the borrowers                  Man Charged with Criminal Enterprise Conspiracy
and presented the copies at the closing as having been                On August 26, 2011, the State of Michigan 19th District
paid. Both she and the borrowers knew the checks would                Court established probable cause to file felony charges
not be cashed, and in most cases, the borrowers did not               against a local businessman, his wife, and his mother.
have the funds in their accounts. For each loan closed,               The businessman was charged with one count of
the broker would receive 1% to 3% of the loan value. To               conducting a criminal enterprise, one count of criminal
date, approximately $8 million has been charged off by                enterprise conspiracy, seven counts of false pretenses,
the financial institutions and the SBA, and an additional             and one count of money laundering. His wife was
$6.762 million is in liquidation. This is a joint                     charged with one count of false pretenses and his mother
investigation with the Federal Bureau of Investigation                with one count of criminal enterprise conspiracy and four
(FBI).                                                                counts of false pretenses. The investigation alleges that
                                                                      when completing an application for a $98,000 SBA-
Title Company Owner Sentenced                                         guaranteed business loan, the wife stated that she was the
On August 16, 2011, in the Eastern District of Michigan,              president and 100% owner of a transport company that
a title company owner in Dearborn, Michigan, was                      was actually owned by her husband. The loan defaulted
sentenced to 12 months and one day incarceration and                  and $93,347.87 was charged off. In addition, the
ordered to pay $5,977,941.57 in joint restitution. He had             husband took out a $100,000 SBA-guaranteed loan in the
previously pled guilty to one count of conspiracy to                  name of his real estate investment company. This loan
commit wire fraud. The investigation disclosed that                   also defaulted and was charged off in the amount of
another broker recruited “straw buyers” and conspired                 $75,188.52. In loan application documents, the husband
with others to obtain SBA-guaranteed loans by means of                allegedly overstated the annual revenue of the company
false statements. The title company owner was also                    as being $890,000, when actually it was only $35,240.
employed as a title agent for another company in                      Both the husband and wife stated that the loans would be
Dearborn Heights, Michigan. The investigation                         used for working capital for the respective businesses,
disclosed that he knowingly falsified loan disbursements              but the funds were allegedly processed, laundered, placed
and equity injections on Department of Housing and                    in the husband’s personal bank accounts, and spent. The
Urban Development (HUD) Settlement Statements in                      charges against the businessman’s mother are related to a
furtherance of the conspiracy. Upon completion of                     separate home mortgage fraud scheme. This is a joint
closings, the fraudulent loan proceeds were wire                      investigation with the U.S. Secret Service, the HUD-
transferred from an account held by his employer’s                    OIG, and the Michigan State Police.
company to his own company. This is a joint
investigation with the U.S. Secret Service.                           Disaster Loans
Wisconsin Investment Firm Owner Signs Agreement                       Former SBA Employee Sentenced
On August 25, 2011, a Wisconsin investment firm owner                 On May 17, 2011, an SBA paralegal was sentenced in
signed a Pre Trial Diversion (PTD) agreement in the                   U.S. District Court for the Eastern District of Texas to
Northern District of Illinois. As part of the PTD                     two years and 1 day imprisonment; 3 years supervised
agreement, he admitted to participating in a fraud scheme             release, and $33,600 in restitution. The investigation
perpetrated by his step-brother, a former SBA lender                  revealed that an application was made for a for a $33,600
relations officer. The step-brother previously pled guilty            SBA disaster loan in order to replace personal property
to one count of wire fraud and is awaiting sentencing.                damaged as a result of Hurricane Ike. The applicant later
The investigation revealed that the step-brother was                  decided not to take the loan and called SBA to cancel his
responsible for resolving issues related to the charge-off            loan application. A few months later, the applicant
of SBA business and disaster loans that were secured                  received a letter from the SBA requesting payment on his
with real estate as collateral. His duties included                   loan. He called the SBA and advised them he had never
determining the current market value of the properties,               received the loan and thought he might be the victim of
securing the loans, and determining if the assets could be            identity theft. The investigation revealed that instead of
recovered from SBA loan debtors. He was also



Update on the Activities of the SBA Office of Inspector General   2                                        August 2011
cancelling the loan application, the SBA paralegal
assigned to the loan forged his signature on loan                            Peggy E. Gustafson, Inspector General
documents, altered one of her personal checks by placing
the applicant’s name on it, and made false entries into the                The OIG has established an e-mail address,
Disaster Credit Management System to support loan                      oig@sba.gov that we encourage the public to use to
disbursement to her own personal checking account.                      communicate with our office. We welcome your
                                                                         comments concerning this update or other OIG
Government Contracting & Business                                      publications. To obtain copies of these documents
                                                                                        please contact:
Development
                                                                                           SBA OIG
8(a) Business Owner Pleads Guilty                                                409 Third Street SW, 7th Floor
On August 18, 2011, the owner of an 8(a) certified                                  Washington, DC 20416
business pled guilty in the Eastern District of Virginia to                          E-mail: oig@sba.gov
one count of procurement of citizenship or naturalization                      Telephone number (202) 205-6586
unlawfully and one count of false statements. His 8(a)                           FAX number (202) 205-7382
certified firm has received over $3 million in contracts
set aside for 8(a) certified businesses. The investigation            Many OIG reports can be found on the OIG’s website
disclosed he obtained falsified U.S. citizenship                        http://www.sba.gov/office-of-inspector-general
documents from a Department of Homeland Security
(DHS) employee and used the documents to obtain a                     If you are aware of suspected waste, fraud, or abuse in
Department of Defense security clearance. He also used                      any SBA program, please report it online at
the same falsified documents as a basis for his claim that             http://www.sba.gov/office-of-inspector-general/2662
he was a U.S. citizen on his firm’s 8(a) application. This
is a joint investigation with the DHS-OIG; DHS -                       Or call the OIG Hotline toll-free, at (800) 767-0385
Immigration and Customs Enforcement; Department of
State - Diplomatic Security Service; and the Department
of Labor - OIG.




Update on the Activities of the SBA Office of Inspector General   3                                  August 2011
